No. 20-1473

In the Supreme Court of the United States
ALAN CRITTENDEN,
v.

Petitioner,

MARIKO CRITTENDEN,
Respondent.
PETITION FOR REHEARING OF
PETITION FOR A WRIT OF CERTIORARI

CARSON J. TUCKER, JD, MSEL
Counsel of Record
LEX FORI, PLLC
DPT #3020
1250 W. 14 Mile Rd.
Troy, MI 48083-1030
(734) 887-9261
cjtucker@lexfori.org

1
PETITION FOR REHEARING
In his Petition for a Writ of Certiorari to the
Supreme Court of the State of Georgia, Petitioner
explained that Georgia refused to exercise subject
matter jurisdiction over his petition for divorce and
the necessarily attendant issues concerning the
custody and welfare of his minor children, both of
whom are American citizens and both of whom
remain in Japan with Respondent without any legal
justification for her to have absconded with them into
that nation. This is the current situation even though
Petitioner established, without opposition, that he
had never established any other home of record
(HOR) or domicile in the United States, having left
the State of Georgia to join the Marines at the age of
18 and having been forward deployed to various
military installations during his active-duty career.
Petitioner’s spouse, also an American citizen, has
a Japanese mother and an American father (also a
serviceman). While the parties were in Japan, they
lived on the American base and were subject to the
Status of Forces Agreement (SOFA) and the terms of
its authorizing treaty between the United States and
Japan. See U.S. SOFA (Japan), United States
Treaties, 11 U.S.T. 1652, T.I.A.S. 4510, Art. IX, cl. 2. 1
“Members of the United States armed forces, the
civilian component, and their dependents shall be
exempt from Japanese laws and regulations on the
registration and control of aliens, but shall not be
considered as acquiring any right to permanent
residence or domicile in the territories of Japan.”
(emphasis added).
1

2
As a result of their status under the SOFA, neither
Petitioner nor Respondent have any rights to the
jurisdiction of Japan or Japanese courts. 2
When Petitioner sought a divorce in the state of
Georgia, the only state in which he had ever been
domiciled or resided before his entry into active duty
military service, Respondent refused to appear and
the state of Georgia refused to recognize subject
matter jurisdiction over his petition for divorce and
over the attendant matters concerning the custody
and welfare of the parties’ minor children.
In the interim, Petitioner moved to Maryland for
purposes of taking a post-service job. Petitioner still
cannot get a divorce. Maryland has yet to adjudicate
Petitioner’s constitutional rights to custody or
visitation with his minor children. Yet, that state has
imposed temporary support obligations on Petitioner
upon the request of Respondent. Anne Arundel
County Circuit Court, Maryland, Case No. C-02-FM20-001938.
In effect, the state courts have failed to provide
Petitioner and the minor children a forum in which to
adjudicate their prima facie constitutional rights, and
yet, the state of Maryland has imposed temporary
support obligations on Petitioner, despite their being
no custody determination, no litigation to determine
support requirements, and, most importantly, no
As pointed out in the Petition, Respondent
subsequently took steps to acquire her Japanese
citizenship, but this did not occur until after the
divorce proceedings.
2

3
justification
supporting
Georgia’s
and
now
Maryland’s failure to provide fundamental due
process rights to Petitioner and his minor children.
In a very literal sense, from the time of the filing
of his claim for divorce in 2018 in the state of Georgia
(his only HOR and domicile (which according to this
Court’s long-standing jurisprudence, is also
Respondent’s domicile)), and today, Petitioner has
been deprived of a forum in which to litigate these
prima facie constitutional issues. Georgia never
recognized Petitioner’s rights, even though Petitioner
demonstrated that it was the only state in which he
could have possibly sought a forum in which to
adjudicate them. Because the state of Maryland has
imposed temporary support obligations on Petitioner
without having adjudicated his or his minor children’s
constitutional rights, Petitioner still has no forum to
adjudicate his rights to custody, nor any question
concerning the safety and welfare of the minor
children. It is difficult to imagine how the state of
Maryland could impose support obligations on
Petitioner and yet no state court has made any
determination as to his rights to custody, the
economic standing of the parties, and, more
importantly, the safety and welfare of the minor
children, who retain independent constitutional
rights which have not been recognized.
Both
Petitioner and the minor children have a protected
constitutional interest that this Court has stated
must be protected by state process. See, e.g., Troxel
v. Granville, 530 U.S. 57, 72; 120 S. Ct. 2054; 147 L.
Ed. 2d 49 (2000)n (freedom of personal choice in
matters of family life is a fundamental liberty interest
protected by the Fourteenth Amendment). See also

4
Quilloin v. Walcott, 434 U.S. 246, 255; 98 S. Ct. 549;
54 L. Ed. 2d 511 (1978); Smith v. Org. of Foster
Families for Equality & Reform, 431 U.S. 816, 845; 97
S. Ct. 2094; 53 L. Ed. 2d 14, 35 (1977); Moore v. East
Cleveland, 431 U.S. 494, 500; 97 S. Ct. 1932; 52 L. Ed.
2d 531, 538 (1977); Cleveland Bd. of Ed. v. LaFleur,
414 U.S. 632, 639-40; 94 S. Ct. 791; 39 L. Ed. 2d 52,
60 (1974); Stanley v. Illinois, 405 U.S. 645, 651-52; 92
S. Ct. 1208; 31 L. Ed. 2d 551, 559 (1972); Prince v.
Massachusetts, 321 U.S. 158, 166; 64 S. Ct. 438; 88 L.
Ed. 645, 652 (1944); Pierce v. Society of Sisters, 268
U.S. 510, 534-35; 45 S. Ct. 571; 69 L. Ed. 1070, 1078
(1925); Meyer v. Nebraska, 262 U.S. 390, 399-400; 43
S. Ct. 625; 67 L. Ed. 1042, 1045 (1923). A natural
parent is entitled to a hearing regarding his or her
rights to custody. Stanley v. Illinois, 405 U.S. 645,
649; 92 S. Ct. 1208, 1211 (1972). A denial of this right
is a violation of the equal protection clause of the
Fourteenth Amendment. Id. No state has yet to
recognized Petitioner’s or the minor children’s
constitutional rights!
There is no good reason for this. Petitioner
demonstrated that this Court and the majority of
state courts recognize that a member of the military
retains the domicile and residence of his origin home
of record (HOR), unless and until he establishes
residence as a citizen of another state. Petitioner
demonstrated that he was domiciled in the state of
Georgia when he joined the Marines at the age of 18.
Petitioner also demonstrated that throughout the
entire time he was an active-duty member of the
Marines, he never established another domicile or
residence in any other state. Petitioner further
proved that during his time in the military, he

5
maintained a Georgia driver’s license, voted in state
and national elections as an absentee voter from
Georgia, and paid taxes in Georgia. As noted,
Respondent, as Petitioner’s wife, is also considered to
retain the same domicile and residence as that of
Petitioner by virtue of his status as an active-duty
member of the military at the time of his filing for
divorce.
If the state of Georgia had followed established
law, it would have correctly assumed jurisdiction over
Petitioner’s divorce petition, and it would have then
been able to adjudicate the prima facie constitutional
rights of Petitioner and those of his minor children
vis-à-vis Respondent, who is herself a United States
citizen.
If the state is not compelled to assume jurisdiction
over a petition for divorce filed by a military
servicemember in the state that is his or her HOR,
then these particular American citizens will be
fundamentally deprived of their ability to assert their
constitutional rights and avail themselves and their
families of all the protections afforded by the
Constitution.
In refusing to exercise jurisdiction over
Petitioner’s lawsuit, the State of Georgia leaves
military servicemembers who are for all intents and
purposes domiciled in that state, but temporarily
serving their country, without a forum in which to
claim residency and file for divorce. In doing so,
Georgia also leaves the children of such military
servicemembers without a home state pursuant to the
Uniform Child Custody Jurisdiction Enforcement Act

6
(UCCJEA), O.C.G.A. § 19-9-40 through § 19-9-64.
This, even though children are considered to be
domiciles of the domicile of their parents, Yarborough
v. Yarborough, 290 U.S. 202, 211; 54 S.Ct. 181; 78
L.Ed. 269 (1933), and the UCCJEA in Georgia adopts
this well-established and unremarkable proposition,
see O.C.G.A. § 19-9-61(a)(1), and indeed requires the
state court to take jurisdiction over a potential
custody matter where there has been no other custody
proceeding “commenced in a court of a state having
jurisdiction” as defined in the statute. See O.C.G.A. §
19-9-64(b).
There was no other forum with
jurisdiction in this case at its inception.
CONCLUSION
Not only has Petitioner and his minor children
been deprived of their constitutional rights by the
State of Georgia’s refusal to litigate his petition for
divorce, but Petitioner is now being subjected to court
proceedings in the state of Maryland concerning his
support obligations even though the state of
Maryland still has not provided Petitioner a forum in
which to litigate his and his minor children’s
constitutional rights. Petitioner has been deprived of
constitutional protections afforded every other citizen
of the United States. He has not received due process.
It is also the case that the minor children are
themselves being deprived of their constitutional
rights. Apparently, no one can assert jurisdiction
over them, nor can a guardian even be appointed to
represent their interests. They are being kept from
the state courts by the actions of Respondent.

7
The states, the United States, and the nation of
Japan have not provided a forum for Petitioner to
adjudicate his and his minor children’s constitutional
rights. That another state court (i.e., Maryland) may
eventually provide such a forum is of no moment to
the present deprivation of these constitutional rights,
which has been ongoing for more than three years.
CONCLUSION
Petitioner raises significant issues concerning the
constitutional rights of military servicemembers and
their families. Petitioner has demonstrated error in
the decision of the Supreme Court of Georgia and the
Georgia Court of Appeals. Petitioner has further
demonstrated that as a result of this error he and his
minor children have been and continue to be deprived
of their constitutional rights.
RELIEF REQUESTED
For the reasons stated above, Petitioner requests
the Court to grant his Petition for Rehearing to
consider his Writ of Certiorari to the Supreme Court
of Georgia.
Respectfully submitted,
Carson J. Tucker
Lex Fori, PLLC
Attorney for Petitioner
(734) 887-9261
Dated: July 23, 2021

